                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM




                  An allegation of intellectual theWplagiarism was brought by the complainant1regarding work
          conducted by her student2 under an NSF-funded grant3. The complainant alleged that the first
          subject4had taken ideas from her student's dissertation as well as a figure from her own work and
          included them in his dissertation. The complainant also alleged that the second subjectScopied and
          distributed code she had written without her permission. Evidence indicated that there was overlap
          between the complainant's student and the first subject in both advisors as well as conceptual
          frameworks within which both conducted research. Evidence also indicated that the material the first
          subject allegedly copied from the complainant was limited and "schematic" in nature. Lastly,
          evidence indicated that the code disseminated by the second subject had questionable NSF
          jurisdiction and was properly referenced. The allegation therefore lacks sufficient substance.


                    Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
